HHS/OIG-AUDIT--Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the Virginia Department of Medical Assistance Services
(A-06-95-00072)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the Virginia Department of Medical Assistance Services," (A-06-95-00072)
November 21, 1996
Complete
Text of Report is available in PDF format (860 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
At the request of the Health Care Financing Administration (HCFA), the Office
of General (OIG) conducted a nationwide review of pharmacy acquisition costs for
drugs reimbursed under the Medicaid prescription drug program. Since most States
reimburse pharmacies for Medicaid prescriptions using a formula which discounts
the average wholesale price (AWP), the objective of our review was to develop an
estimate of the discount below AWP at which pharmacies purchase brand name and
generic drugs.
To accomplish our objective, we selected a random sample of 11 States from a universe
of 48 States and the District of Columbia. Arizona was excluded from the universe
of States because the Medicaid drug program is a demonstration project using prepaid
capitation financing and Tennessee was excluded because of a waiver received to
implement a statewide managed care program for Medicaid. Virginia was one of the
sample States selected, as well as California, Delaware, District of Columbia,
Florida, Maryland, Missouri, Montana, Nebraska, New Jersey, and North Carolina.
Additionally, we selected a sample of Medicaid pharmacy providers from each State
and obtained invoices of their drug purchases. The pharmacies were selected from
each of five categories--rural-chain, rural-independent, urban-chain, urban-independent
and non-traditional pharmacies (nursing home pharmacies, hospital pharmacies, etc.).
We included the non-traditional category so as to be able to exclude those pharmacies
from our overall estimates. We believed such pharmacies purchase drugs at substantially
greater discounts than retail pharmacies, and including them would have inflated
our percentages.
We compared each invoice drug price to AWP for that drug and calculated the percentage,
if any, by which the invoice price was discounted below AWP. We then projected
those differences to the universe of pharmacies in each category for each State
and calculated an overall estimate for each State. Additionally, we projected the
results from each State to estimate the nationwide difference between invoice price
and AWP.
In Virginia, we obtained pricing information from 24 pharmacies. Specifically,
we obtained 1,413 invoice prices for brand name drugs, and 686 invoice prices for
generic drugs. For Virginia, the overall estimate of the extent that invoice prices
were discounted below AWP was 17.2 percent for brand name drugs and 45.1 percent
for generic drugs. The national estimates are 18.3 percent and 42.5 percent, respectively.
The estimates combine the results for four categories of pharmacies including rural-chain,
rural-independent, urban-chain and urban-independent and exclude the results obtained
from non-traditional pharmacies.
We are recommending that the Virginia Department of Medical Assistance Services
(State Agency) consider the results of this review as a factor in any future changes
to pharmacy reimbursement for Medicaid drugs. We will share the information with
HCFA from all 11 States in a consolidation report for their use in evaluating the
overall Medicaid drug program.
The Director of the State Agency responded to our draft report in a letter dated,
October 17, 1996. The Director was appreciative that the report stated that acquisition
cost is just one factor involved in pharmacy reimbursement policy and that with
any change to that policy, consideration should be given to the other factors.